               United States Department of Justice
                    Office of the Inspector General
                                      Audit Division




AUDIT REPORT



REEMPLOYMENT OF
ANNUITANTS BY THE
 IMMIGRATION AND
  NATURALIZATION
     SERVICE




 FEBRUARY 2003

     03-16
 REEMPLOYMENT OF ANNUITANTS BY THE IMMIGRATION
          AND NATURALIZATION SERVICE

                        EXECUTIVE SUMMARY

      The Office of the Inspector General conducted an audit of the rehiring
of federal annuitants by the Immigration and Naturalization Service (INS).
Beginning in Fiscal Year (FY) 1996, INS was granted emergency authority to
rehire federal retirees. We performed this audit in response to a request by
the Chairmen of the House Judiciary Committee and the Subcommittee on
Immigration, Border Security, and Claims, who expressed concern over the
length of time the INS had used this authority and the INS’s apparent failure
to develop new hiring practices to obviate the need to rehire annuitants.
Our audit identified areas of internal control that require strengthening.
Most importantly, we found that the INS had not developed long-range
hiring alternatives to reduce or eliminate the use of rehired annuitants.

Background

      The INS began hiring annuitants in an effort to meet a 1995
Congressional mandate calling for hiring 5,000 new Border Patrol Agents.
The INS sought delegated authority from the Office of Personnel
Management (OPM) to hire annuitants possessing the requisite skills while
waiving compulsory pay reductions against annuities. The INS obtained this
authority on February 22, 1996, and it expired on September 30, 1998.

      The OPM stipulated that the INS not exceed 500 reemployed
annuitants during the term of this authority and that appointments made
under this authority had to be in the areas of:

     •   training;
     •   interviewing and processing new Border Patrol Agents;
     •   replacing or supplementing field positions as -
                o Border Patrol Agents
                o Immigration Inspectors, Investigators, and Instructors
                o Adjudications Officers
                o Other administrative support personnel.

In its delegation letter, OPM outlined specific hiring and retention criteria
that the INS must adhere to and advised the INS that prospective new hires
were to be evaluated on a case-by-case basis to ensure their eligibility. The
OPM stipulated that this authority was to be utilized merely as a stopgap




                                 -i–
measure, and the INS would have to develop alternative hiring methods to
ensure future compliance with the Congressional mandate.

      By letter dated August 11, 1998, the OPM granted the INS its first
extension of the waiver authority through September 30, 2000, again
vesting the delegated authority with the INS Assistant Commissioner,
Human Resources and Development. However, the extended delegation of
authority reduced the ceiling on reemployed annuitants from 500 to 200
during the new term of the authority. On September 12, 2000, the OPM
granted a second extension of the delegated authority through September
30, 2002, with a ceiling of 300 annuitants. However, the OPM noted that
the INS’s hiring practices had apparently become a recurring problem.
Therefore, the OPM approval provided that the Attorney General could
redelegate the authority only to the Department of Justice (Department)
Assistant Attorney General for Administration or other senior official in the
Justice Management Division (JMD). Accordingly, the OPM removed the
authority to approve waivers from the INS and vested it with JMD.

       On April 1, 2002, the OPM extended the waiver authority for the third
time to September 30, 2004. The OPM extension provided that the
Department could redelegate limited approval to an INS Headquarters
official. However, in an e-mail dated August 13, 2002, an official of OPM
revised its grant of waiver authority to permit redelegation only to JMD.

OIG Audit

      In response to the Congressional request, we undertook three tasks:

    (1)   Identify the annuitants the INS rehired and the compensation
          awarded,
    (2)   Determine if the INS and JMD approved waivers of dual
          compensation reductions appropriately, and
    (3)   Assess the INS’s long term hiring and training strategies that would
          reduce the need to rehire annuitants.

      We found that the INS did not have a system that accurately tracked
the number of federal annuitants it rehired and lacked sufficient accounting
controls to confirm the compensation paid to annuitants it employed from
FY 1996 through FY 2002. We therefore contacted the National Finance
Center (NFC)1 for this information and found that from FY 1996 through
FY 2002 the INS employed a total of 379 annuitants and paid them

1
       The NFC, a component of the U.S. Department of Agriculture, provides federal
agencies with automated support services for payroll, personnel, administrative payments,


                                       - ii –
approximately $49 million in salary (including overtime) compensation.2 Of
these 379 annuitants, 294 received waivers enabling them to collect their
annuities and full salaries. These 294 annuitants received salary
compensation totaling $39.5 million. We recommend that the INS maintain
an accurate source of data for rehired annuitants, and implement accounting
procedures to identify the compensation paid to rehired annuitants and
reconcile the data with the NFC.

      The INS also did not maintain records to document its rationale for
hiring each annuitant from FY 1996 through FY 2000. Therefore, our review
is qualified to that extent that we cannot render an opinion on the
appropriateness of the INS’s decisions to rehire annuitants during that
period. Accordingly, we focused on 69 INS requests reviewed and approved
by JMD during FY 2002. We found that while JMD denied a number of
requests by the INS, it does not currently maintain a standard review sheet
or similar analysis that provides the basis or rationale for its decisions on the
waiver extension requests. In our judgment, JMD also can improve its
review process and mitigate or eliminate potential questions regarding its
waiver extension decisions by documenting its analyses.3

      We also concluded that the INS had not developed an effective plan to
reduce its dependence on rehired annuitants. When the OPM first granted
the INS waiver authority in 1996, it stated that the authority was temporary
and to be used for emergencies dealing with threats to life or property, or
unusual circumstances. It also stated that the authority was to be used to
hire 5,000 new employees, most of whom, according to the OPM, were to be
Border Patrol Agents, Immigration Inspectors, and Immigration
Investigators. At the time of the second request by the INS for an extension
of the waiver authority, the OPM recognized the need to formalize a
requirement for the INS to develop alternate hiring methods. In its
September 12, 2000, waiver extension letter, the OPM asked JMD to request
the INS to develop long-term strategies for their officer training and
adjudication functions, and asked JMD to review the INS plans before JMD
approved waivers for annuitants during FY 2002. We acknowledge that the
OPM language does not require JMD to approve the long-term strategy from

accounts receivable, property management, budget, and accounting activities.

2
      All reported compensation information excludes financial data for FY 2001 because
the NFC did not have it available for our use.
3
       Since the INS is scheduled to transfer to the Department of Homeland Security
(DHS) on March 1, 2003, the administrative component in the DHS will need to address this
issue.



                                      - iii –
the INS, but it is evident to us that the OPM did recognize the need for the
INS to develop a methodology that would negate the need for waiver
authority.

      The INS submitted its strategy to JMD on October 12, 2001, but JMD
rejected it on October 23, 2001, stating that the information addressed
hiring of annuitants but lacked a long-term strategy for officer training and
adjudication positions. The INS resubmitted its strategy to JMD on March
22, 2002, but JMD again rejected it. According to JMD officials, they
believed the resubmission had too many similarities to the previously
rejected strategy. Notwithstanding the INS’s repeated failure to devise a
long-term recruitment strategy, which OPM asked JMD to review before
approving waivers in FY 2002, JMD continued to review and approve waivers
requested by the INS.

      As a result of our audit, we made five recommendations to the INS
and JMD (or the appropriate component in the Department of Homeland
Security). The recommendations include the need to develop improved
accounting procedures; a single source database of rehired annuitants;
documentation of effective long-range hiring and training strategies; and
possible revocation of the INS’s ability to rehire annuitants.

      The details of our field work are contained in the Findings and
Recommendations section of the report.4 Our audit scope and methodology
are detailed in Appendix I.




4
       As part of our audit process, we asked INS headquarters and JMD management to
furnish us with a signed management representation letter containing assurances that our
staff was provided with all necessary documents and that no irregularities exist that we
were not informed about. As of the date of issuance of this report, the INS had declined to
sign the letter, and although JMD did not decline to do so, we had not received the letter.
Therefore, our findings are qualified to the extent that the INS and JMD management may
not have provided us with all relevant information.


                                       - iv –
  REEMPLOYMENT OF ANNUITANTS BY THE IMMIGRATION
           AND NATURALIZATION SERVICE

                             TABLE OF CONTENTS
                                                                                    Page

EXECUTIVE SUMMARY...................................................................i
INTRODUCTION ..........................................................................1
FINDINGS AND RECOMMENDATIONS .............................................5
  I. NUMBER OF REHIRED ANNUITANTS AND COMPENSATION
  AWARDED ...............................................................................5
    Recommendation ...................................................................7
  II. ASSESSMENT OF THE WAIVER APPROVAL PROCESS .................8
    Recommendations ................................................................ 11
  III. DEVELOPMENT AND IMPLEMENTATION OF LONG-TERM HIRING
  AND TRAINING STRATEGIES .................................................... 12
    Recommendations ................................................................ 15
APPENDIX I – OBJECTIVES, SCOPE, AND METHODOLOGY ............... 16
APPENDIX II – WAIVER APPLICATION GUIDANCE BY JMD ............... 18
APPENDIX III – IMMIGRATION AND NATURALIZATION SERVICE
RESPONSE ............................................................................... 20
APPENDIX IV – JUSTICE MANAGEMENT DIVISION RESPONSE.......... 23
APPENDIX V – OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT ........... 25
                            INTRODUCTION

      By letter dated September 5, 2002, the Chairmen of the House
Judiciary Committee and the Subcommittee on Immigration, Border
Security, and Claims asked the Office of the Inspector General (OIG) to
review the Immigration and Naturalization Service’s (INS) hiring of
annuitants who received dual compensation waivers. In the letter, the
Chairmen noted that:

     OPM has allowed the Justice Department to approve waiver
     requests on a case-by-case basis for annuitants in positions
     required “[t]o adjudicate naturalization and adjustment of status
     applications . . . in offices with processing times averaging more
     than 6 months during periods when that office either offers other
     adjudicators overtime or has used overtime to the maximum
     extent possible and has vacant positions due to the lack of
     available candidates,” as well as to train Border Patrol Agents
     and their supervisors . . . .

      But the Chairmen also cited a concern that the Office of Personnel
Management (OPM) raised in renewing the authority for FY 2000. The OPM
Director stated that the INS’s staffing emergency appeared to have become
a continuing staffing problem and that the INS needed to develop long-range
strategies to resolve the staffing issues to avoid relying on the waiver
authority. As a result of these concerns, the Chairmen requested that the
OIG review:

     the INS's reemployment of annuitants for whom dual
     compensation reductions have been waived, to assess whether
     that authority has been used appropriately and to evaluate
     whether the INS has developed long-term strategies to fill its
     officer training and adjudication functions without relying on this
     authority.

Accordingly, the objectives of our audit were to: (1) identify the annuitants
the INS rehired and the compensation awarded, (2) assess whether the INS
approved waivers of dual compensation reductions appropriately, and
(3) determine whether the INS developed and implemented long term hiring
and training strategies that would reduce the need to rehire annuitants.




                                    -1-
Background

      According to 5 U.S.C. § 8344 (regarding the Civil Service Retirement
System) and 5 U.S.C. § 8468 (regarding the Federal Employees Retirement
System), a rehired annuitant shall have an amount equal to the annuity
allocable to the period of actual employment deducted from his pay.
However, pursuant to 5 CFR 553.201, the OPM Director may, at the request
of the head of an Executive agency, waive the application of the deduction
requirements on a case by case basis for employees in positions for which
there is exceptional difficulty in recruiting or retaining a qualified employee.
Under 5 CFR 553.202 the Director may do the same for an employee serving
on a temporary basis, but only if, and for so long as, the authority is
necessary due to an emergency involving a direct threat to life or property
or other unusual circumstances. The OPM may delegate this authority to the
head of an Executive agency.5

      By letter dated December 5, 1995, the INS requested assistance from
the Justice Management Division (JMD) to acquire from the OPM a
delegation of authority to grant waivers of annuity offsets in individual cases.
The INS request came in response to its anticipated hiring of 5,000
additional officer corps employees in FY 1996. According to the letter:

      Temporary re-hiring recently retired INS employees in support
      roles would immediately provide a cadre or well trained
      employees who clearly understand the mission and function of
      the INS to support mission requirements and training. These
      employees’ experience in the INS would be invaluable since most
      of them already speak and read Spanish, understand Hispanic
      culture, and could quickly become current in immigration and
      nationality law.

      The OPM granted the INS’s request by letter dated February 22, 1996,
vesting the delegated authority with the INS Assistant Commissioner for
Human Resources and Development. The OPM stipulated that the INS not
exceed 500 reemployed annuitants during the term of the authority and that
appointments made under the authority had to be in the areas of:




5
      The OPM delegated such authority to the Social Security Administration, the
Department of Treasury, and the Department of Agriculture.


                                          -2-
     •   training;
     •   interviewing and processing new Border Patrol Agents;
     •   replacing or supplementing field positions as -
                o Border Patrol Agents
                o Immigration Inspectors, Investigators, and Instructors
                o Adjudications Officers
                o Other administrative support personnel.

      According to the delegation granted by the OPM, the INS had to review
and approve each waiver individually. The OPM further specified that the
INS reassign employees replaced by rehired annuitants to process and train
new recruits.

     By letter dated August 11, 1998, the OPM granted an extension of the
waiver authority through September 30, 2000, again vesting the delegated
authority with the INS Assistant Commissioner for Human Resources and
Development. However, the extended delegation of authority was reduced
from a maximum of 500 reemployed annuitants to a maximum of 200
reemployed annuitants during the revised term of the authority.

      By letter dated September 12, 2000, the OPM advised the Assistant
Attorney General for Administration that it extended the delegated authority
through September 30, 2002. The OPM stated that the Attorney General
may redelegate the authority to the Assistant Attorney General for
Administration or other senior official in JMD. By so doing, the OPM took the
authority to approve waivers away from the INS Assistant Commissioner for
Human Resources and Development and vested it with JMD. The JMD then
assumed review and approval authority for the INS’s requests for waiver
authority. The OPM letter also noted that:

     INS’s staffing emergency, which began in 1995, appears to have
     become a continuing staffing problem. Please ask INS to look
     carefully at their workforce needs for FY 2003 through FY 2007
     and to develop long-term strategies for their officer training and
     adjudication functions without continued reliance on this
     delegated authority. We ask that you review their plans prior to
     approving waivers for annuitants during FY 2002.

The OPM suggested that the INS formulate plans to include alternatives to
reemploying annuitants, such as, “. . . details, internal staffing actions,
training agreements, recruiting bonuses, retention allowances, incentive
awards, contracting, etc.”


                                    -3-
      On April 1, 2002, the OPM again extended the waiver authority, this
time to September 30, 2004. The OPM letter provided that the Department
could redelegate limited approval authority to an INS Headquarters official.
However, in an e-mail dated August 13, 2002, between an official of the
OPM and an official of the Department of Justice (Department), the
redelegation provision was revised to provide for redelegation authority only
to JMD not the INS. Therefore, at the time of our review, JMD had to review
and approve all requests for waivers of dual compensation from the INS.




                                    -4-
                 FINDINGS AND RECOMMENDATIONS

I.    NUMBER OF REHIRED ANNUITANTS AND COMPENSATION
      AWARDED

      The INS does not maintain accurate and complete data on
      annuitants who were rehired under OPM granted waiver
      authority. Additionally, the INS lacked sufficient accounting
      controls to identify the compensation paid to annuitants it
      employed from FY 1996 through FY 2002. We determined
      through the National Finance Center (NFC) that during those
      fiscal years the INS granted waivers to a total of 294 annuitants,
      paying them approximately $39.5 million in salary
      compensation6, including overtime. A total of 85 additional
      annuitants, who were not granted waivers, received
      compensation totaling approximately $9.4 million during the
      fiscal years. However, due to the lack of accurate and complete
      data, we could not verify the number of annuitants and amounts
      they were compensated.

      We requested INS officials to provide a list of rehired annuitants and
the amount of compensation paid to them from FY 1996 through FY 2002.
The INS Human Resource and Development (HRD) staff provided a list of
320 annuitants rehired at various times during that period but could not
provide the amounts of compensation paid to them by fiscal year. The INS
acknowledged that their records did not include this information. As a
result, we had to identify an alternate source for the compensation
information.

       We requested the JMD Finance Staff to obtain specific data from the
NFC, which maintains payroll information for the Department. We asked
that the data cover FY 1996 through FY 2002, and include the following
information about INS reemployed annuitants: identifying information,
dates of employment, salary, amount of annuity, entered-on-duty dates,
annuitants working with and without a waiver7. The NFC reported a total of
294 rehired annuitants with waiver working for the INS during the seven
fiscal years reviewed, as follows:

6
       We were unable to obtain annuity payment data from either the INS or the NFC
because that data is under separate control by the OPM. We consolidated the INS and the
NFC lists of rehired annuitants and requested annuity data from the OPM. The OPM was
unable to provide that to us before the issuance of this report.
7
        The INS did employ retired employees who consented to be rehired with a reduction
to their salaries based on their annuities.

                                          -5-
                 INS Annuitant Hiring Pattern By Fiscal Year
                          FY       Hired With Waiver
                         1996                       19
                         1997                       61
                         1998                     102
                         1999                       53
                         2000                       14
                         2001                        6
                         2002                       39
                         Total                    294
                            Source: NFC8

       According to the NFC data, 227 of the 294 annuitants hired with salary
offset waiver were in two General Series (GS): 99 annuitants in GS 1712,
Training Instructor; and, 128 annuitants in GS 1801, General Inspection,
Investigation and Compliance. The remaining 67 annuitants were in 25
other occupational series. The series used by the INS were consistent with
the specific job areas covered by the OPM delegations of authority.

      Once we identified the number of annuitants hired using a waiver, we
compared the total number of annuitants with waiver on board against limits
set by the OPM in its delegations of authority. We found that the INS stayed
within the maximums for every period, as follows:

              Comparison of Annuitants With Waivers vs.
                  Maximums Per OPM Delegations
                        Employed at End of     Maximum Allowed per
          FY                   Period                   OPM
      1996 – 1998               152                     500
      1999 – 2000               140                     200
      2001 – 2002               121                     300
Source: NFC and OPM

      The NFC data also included the amount of compensation provided to
annuitants who received waivers and those who did not. According to the
NFC, from FY 1996 through FY 20029 the INS paid $39.5 million in salary

8
       The NFC informed us that the data contained in the report is under the control of the
INS input and the NFC does not perform quality checks as to the completeness and
accuracy of the information.

9
       Excludes FY 2001 compensation, see footnote number 2.


                                           -6-
compensation, including overtime, to the 294 annuitants who received
waivers and $9.4 million to the 85 annuitants who did not receive waivers,
thus paying a total of 379 annuitants salary compensation totaling
approximately $49 million. The following table provides the amount of
compensation by fiscal year that the INS paid to annuitants with waivers.

             NFC Salary Data for Annuitants with Waivers
                      FY 1996 through FY 2000
                            and FY 2002
                                Total Salary Paid
                        FY          Per NFC
                      1996           $   398,373
                      1997             3,104,874
                      1998             5,487,816
                      1999            10,929,976
                      2000            11,286,730
                      2001            Unavailable
                      2002             8,313,373
                      Total          $39,521,142
                       Source: NFC

Recommendation

      We recommend that the INS Commissioner ensure that the INS:

1.   Has procedures in place to identify the names, series, and compensation
     paid to rehired annuitants who receive waivers and ensure that this
     information reconciles with data provided to the NFC.




                                     -7-
II.   ASSESSMENT OF THE WAIVER APPROVAL PROCESS

      The Department needs assurance that decisions regarding requests for
      waivers of annuity offsets for the INS rehired annuitants comply with
      guidance provided by the OPM. The INS did not consistently include in
      annuitant files statements from appointees that they would not accept
      positions without waivers being granted and did not maintain historic
      records (FY 1996 through FY 2000) to substantiate its rationale for
      identifying individual rehired annuitant positions. JMD, who assumed
      responsibility for approving rehiring annuitants on a case-by-case
      basis in FY 2000, does not currently maintain a standard review sheet
      or similar analysis that provides the basis for its decisions on these
      requests. As a result, neither the INS nor JMD can provide assurance
      that they made these decisions in accordance with the authority
      provided to them by the OPM.

      In the Introduction section and Finding I of this report we discuss the
timing of the INS requests for delegated waiver authority and subsequent
OPM actions. The following table summarizes the timeline of delegated
authority.

                       Waiver Authority by Period
                       Period            Delegation
                 FY 1996 – FY 2000          INS
                 FY 2001 – FY 2004          JMD
                  Source: OPM

       In the initial OPM delegation of waiver authority to the INS (and every
letter thereafter), the OPM stated that the INS had to maintain specific
information for each rehired annuitant receiving a waiver, including:

      •   the appointee’s name,
      •   the appointee’s position,
      •   the location of the appointment, and
      •   a statement from the appointee that he or she would not accept the
          position without a waiver being granted.

      To determine the INS’s responsiveness to these requirements, we
reviewed 146 files: 69 files that the INS provided to JMD in FY 2002 for
requests to extend waivers, and 77 files maintained at the Immigration
Officer Academy and the Border Patrol Academy. The 69 files that INS
provided to JMD contained the information cited in the initial OPM
delegation. However, of the 77 files we examined at the academies, only 24
contained statements from applicants that they would not accept the

                                     -8-
positions without waivers being granted. In our judgment, the INS needs to
ensure that all of the annuitants’ files include this information.

      The next essential step to the review was to assess the INS’s rationale
and decisions to rehire annuitants with waivers, and determine if such
information was documented by the INS. We asked the INS for records
documenting their rationale and decisions to rehire individual annuitants
from FY 1996 through FY 2000. The INS could not provide data to
substantiate their rationale for rehiring specific annuitants. Therefore, our
results are qualified to the extent that we cannot attest to the
appropriateness of the INS decisions to rehire annuitants with waiver from
FY 1996 through FY 2000.

      For FY 2003 and 2004, JMD’s Personnel Staff reviews the INS requests
for waivers and extensions of annuity offsets, and the Assistant Attorney
General for Administration has authority to approve them. A JMD official
stated that this process entails screening the rehired annuitant’s application
for crucial skills that would benefit the INS. Each waiver is reviewed on a
case-by-case basis. According to JMD, the factors considered are the nature
of the job, the skills needed to perform the job, and the geographic locale.
In an effort to add consistency to the waiver process, JMD contacted the
OPM on September 29, 2000, to request advice regarding how to review
waivers and extensions properly. The OPM provided general advice to JMD
but suggested that JMD consider six questions when reviewing waivers and
extensions:

         •   How long can the timeframe of mission critical positions be
             deferred without causing significant harm to the program?
         •   Can the office accomplish the mission critical tasks of the
             position by any other means?
         •   Is this an authorized and fully funded position for which INS is
             actively recruiting?
         •   Have prior recruiting efforts failed to identify a fully qualified
             candidate?
         •   Is there an urgent need to do the work while a candidate is
             waiting for clearances?
         •   What is the minimum overlap required to train a new,
             reassigned, or promoted employee?

      From the guidance provided by the OPM, JMD developed a list of
information that the INS was to submit with each waiver application that
addressed the mission of the project and program, personal information
about the individual, and information about the position. (See Appendix II
for the detailed list of required information.) JMD Personnel Staff

                                      -9-
representatives stated that they reviewed the requests against these
requirements, taking into consideration the needs of the INS and the
Department.

      To assess JMD’s actions, we judgmentally selected for review requests
for extensions from the INS in FY 2002. During the period JMD denied 23 of
69 waiver extension requests from the INS as shown in the following table.

                      Results of JMD’s Reviews of FY 2002
                        Waiver Extension Requests
                                     Number
                                      of INS    Decisions by JMD
        Position                    Requests Approved Denied
                             10
        Immigration Inspector               10        10        0

        Training Instructor11                           39              28          11

        Field Operations12                              20               8          12

        Total                                           69              46          23
                Source: JMD

      We reviewed a judgmental sample of 57 of the 69 requests and
compared the actual submissions from the INS against JMD decisions. We
found no documentation of how JMD applied the criteria to each request.
Such evidence could have been maintained in the form of a checklist, a
narrative, or some other type of written record. Without such
documentation, JMD cannot provide assurance to the Department that the
reviews were conducted in accordance with criteria suggested by the OPM
and subsequently developed by JMD. Accordingly, we believe that JMD can
improve its review process and mitigate any potential questions regarding
the justification of its waiver extension decisions by documenting its analysis
and results of each application for extension.
10
       Annuitants perform the full range of inspection, examination, processing and law
enforcement duties regarding persons seeking to enter the United States from abroad. The
positions are located at Dulles Airport.
11
        Annuitants perform a variety of training tasks, which consist of but are not limited to
the following topics: course planning and development, evaluating and updating
curriculum, professional duties, and other duties as assigned. The assignments are located
at the FLETC in Glynco, GA, the Border Patrol Academy in Charleston, SC, and advanced
training facilities in Artesia, NM.
12
       Annuitants perform various duties in the areas of adjudication, detention,
deportation, and investigation.

                                            - 10 -
Recommendations

     We recommend that the INS Commissioner:

2.   Ensure that rehired annuitant files include statements that the
     appointees would not accept the position without waivers being
     granted.

     We recommend that the Assistant Attorney General for Administration,
JMD, or the successor counterpart in the Department of Homeland Security
(DHS):

3.   Utilize a formal record to document the analysis performed of each
     request for waiver or extension by the INS.




                                  - 11 -
III.   DEVELOPMENT AND IMPLEMENTATION OF LONG-TERM
       HIRING AND TRAINING STRATEGIES

       The INS had not developed an effective methodology to reduce
       its dependence on rehired annuitants whose annuity offsets are
       waived. The OPM granted the waiver authority to rehire
       annuitants in 1996 on a temporary basis in response to a
       Department request to meet a staffing emergency. In its
       September 12, 2000, waiver extension letter, the OPM
       recognized that the INS had made no progress in addressing its
       continual reliance on rehired annuitants. The OPM asked JMD to
       request the INS to develop long-term strategies for their officer
       training and adjudication functions. The INS submitted its
       strategies to JMD on October 12, 2001, and March 22, 2002.
       JMD rejected both saying that the information in the plans
       pertained only to the hiring of annuitants and did not address
       the INS’s long-term strategy to staff officer training and
       adjudication positions. Therefore, the INS needs to develop and
       implement a meaningful long-term strategy.

      When the OPM first granted the Department request for waiver
authority in 1996, it stated that the authority was for use on a temporary
basis, for emergencies dealing with threats to life or property, or unusual
circumstances. Various INS officials, including the Executive Associate
Commissioner for Management, told us that they considered the rehiring of
annuitants with waivers to be an efficient and cost effective way of acquiring
experienced and qualified employees. For example, in the Immigration
Officer and Border Patrol Academies, they said their rehired annuitants made
up a pool of qualified instructors with practical experience to share in the
classroom. They said that the extent of this experience can only be matched
by detailing working officers to the academies, thus creating a drain on the
manpower available to the field. According to the INS, this is cost effective
in that a rehired annuitant is not paid relocation or other benefits, while a
relocated officer is paid to move and a detailed officer is given temporary
duty allowance.

      Notwithstanding the opinions of the INS officials, the OPM determined
that the INS needed to use hiring methods other than relying on granting
annuitants waivers. Therefore, in its September 12, 2000, letter extending
the delegation authority, the OPM requested that JMD ask the INS to review
their workforce needs for FY 2003 through FY 2007 and develop long-term
strategies for their officer training and adjudication functions without
continued reliance on the delegation of authority. The OPM asked JMD to
review the INS plans before JMD approved waivers for annuitants during

                                     - 12 -
FY 2002. We acknowledge that the OPM language does not require JMD to
approve the long-term strategy from the INS, but it is evident to us that the
OPM did recognize the need for the INS to develop a methodology that
would negate the need for waiver authority. The OPM provided JMD with
general guidance regarding the composition of long-range strategies:

      Such strategies could include details, internal staffing actions, training
      agreements, recruiting bonuses, retention allowances, incentive
      awards, contracting, etc.

      The INS submitted its initial strategy to JMD on October 12, 2001.
The document listed methods of reducing the INS reliance on rehired
annuitants by upgrading recruiting efforts, but the INS qualified the effort by
saying that there was an assumed shortage of quality candidates available.
JMD rejected the submission, stating that the information addressed hiring
of annuitants but not a long-term strategy to staff officer training and
adjudication positions.

      JMD advised the INS to submit a revised plan within 15 days of
October 23, 2001. Until JMD reviewed such plan, the 96 individuals would
only receive extensions through November 30, 2001, and 5 new annuitants
would not be approved. The INS submitted a revised plan almost 4 ½
months later. JMD also rejected that plan for the same reasons as it did the
INS’s October 12, 2001, submission.

      JMD continued to review requests for waiver extensions and after
subsequent communications with the INS, JMD received INS’s revised
strategy dated March 22, 2002. As of the time of our audit, JMD had not
provided a formal response to the plan. However, officials of the JMD
Personnel Staff advised us that JMD had verbally rejected the revised plan.
JMD officials told us that that they had determined that there were too many
similarities between the second submission and the first, rendering it a
mirror version with too little additional input. Accordingly, from JMD’s
perspective the INS still lacks an acceptable long-range recruitment plan.
Yet, JMD continued to review and approve requests for new waivers and
hiring extensions of existing waivers. JMD needs to decide if it should
continue to approve new waivers and extensions of waivers in advance of
the INS developing and implementing an acceptable long-term hiring plan in
response to the OPM’s concerns.

      We asked INS officials to describe the issues it faced in developing a
viable long-range plan. The INS indicated that after the events of
September 11, 2001, it encountered various obstacles in devising a plan,
including:

                                     - 13 -
      •   Public Law 107-206, which permits the Federal Law Enforcement
          Training Center (FLETC), a major competitor for qualified law
          enforcement training professionals, to rehire annuitants without
          offset;
      •   a general drain on qualified field personnel from competition with
          newly formed law enforcement agencies, such as the Transportation
          Security Agency; and
      •   an impending major reorganization under legislation creating the
          DHS.

      Public Law 107-206 §1202(a), “2002 Supplemental Appropriations Act
for Further Recovery From and Response To Terrorist Attacks on the United
States,'' states that the FLETC:

      may, for a period ending not later than 5 years after August 2,
      2002 appoint and maintain a cadre of up to 250 Federal
      annuitants: (1) without regard to any provision of title 5, United
      States Code, which might otherwise require the application of
      competitive hiring procedures; and (2) who shall not be subject
      to any reduction in pay (for annuity allocable to the period of
      actual employment) under the provisions of section 8344 or
      8468 of such title 5 or similar provision of any other retirement
      system for employees.

An INS official stated that the INS is at risk to lose significant qualified
training staff to FLETC because the INS does not have comparable salary
and annuity protection for the individuals. Therefore, in our opinion the INS
is more inclined to continue to offer waivers to annuitants than it is to
develop a long-term plan to fill training vacancies with new hires or
transfers.

       Similar concerns were voiced by officials at the Border Patrol Academy,
Immigration Officer Academy, and Field Operations staff, who cited critical
staffing constraints imposed by the loss of qualified agents to newly formed
law enforcement agencies such as the Transportation Security
Administration. Although this does not impact the rehired annuitant
population directly, the INS suggested that the reduced staffing aggravates
the existing training problem. According to the INS, the imposition of
increased hiring to meet demand and the reduction in the number of
qualified agents to other law enforcement enhances the need for training
new recruits. Additionally, the INS stated that detailed veteran agents
traditionally staff many training positions, and those agents cannot be
spared from their field positions for training duties. Finally, according to the

                                     - 14 -
INS, it cannot provide newly trained officers to the field to alleviate the
staffing problem. The INS decided to use rehired annuitants in the training
academies to augment the need for detailed veteran agents from the field.

      The INS also said that its impending transfer to the newly created DHS
has forced it to refocus its organizational priorities. As a result, this further
impacted its ability to develop long-term hiring strategies.

       Notwithstanding the comments by INS officials, in our opinion the INS
still needs to develop an acceptable long-term hiring strategy in accordance
with the request in the OPM’s September 12, 2000, letter to JMD. Further,
JMD needs to decide if it should continue to review and approve new
requests for waivers and extensions of waivers in advance of the INS having
an acceptable long-term hiring plan.

Recommendations

      We recommend that the INS Commissioner:

4.    In collaboration with JMD (or the successor component in the DHS),
      ensure that an acceptable long-range hiring and training strategy is
      implemented that establishes viable alternatives to the use of
      reemployed annuitants using offset waivers.

     We recommend that the Assistant Attorney General for Administration,
JMD, or the successor component in the DHS:

5.    Consider not approving INS’s requests for waiving annuity offsets
      against salaries if an agreeable long-term plan is not developed and
      implemented in a specific timeframe.




                                     - 15 -
                                                               APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

      In response to a request by the Chairmen of the House Judiciary
Committee, and the Subcommittee on Immigration, Border Security, and
Claims, the Office of the Inspector General initiated an audit of waivers to
dual compensation restrictions utilized by the INS to reemploy retired
annuitants. Our preliminary objectives were three-fold: (1) identify the
annuitants INS rehired and the compensation awarded, (2) assess whether
the INS approved waivers of dual compensation reductions appropriately,
and (3) determine whether the INS developed and implemented long-term
hiring and training strategies that would reduce the need to rehire
annuitants.

       We conducted an entrance conference at INS headquarters where we
were provided documentation detailing the extensive involvement of JMD as
oversight agency per OPM guidance, in managing the INS’s waiver approval
process effective September 30, 2000. Accordingly, JMD was included
within the scope of this audit. Our objectives, as they pertain to each
distinct department, remained three-fold and unchanged.

     This audit was conducted in accordance with Government Auditing
Standards issued by the Comptroller General of the United States.
Consequently, we included in our research records pertaining to personnel
management and financial accounting as provided by the NFC, JMD, and
INS.

      In the course of our research we conducted interviews with INS, JMD,
NFC, and OPM officials. The audit team conducted on-site visits to the U.S.
Border Patrol Academy’s training facility in Charleston, SC, in addition to an
on-site visit to the Immigration Officer Academy located within FLETC in
Brunswick, GA. We interviewed the academy chiefs, border patrol agents,
senior administrative personnel, and annuitant training instructors past and
present.

       As part of our audit process, we routinely ask management of the
organization audited to furnish us with a signed management representation
letter. In this letter, INS and JMD management would certify to us that: (1)
they provided us with all standards, internal reports, memoranda, and other
documentation associated with the reemployment of annuitants; and (2)
there are no relevant matters, contingencies, irregularities, or subsequent
events of which our staff has not been aware. As of the date of issuance of
the report, the INS Executive Associate Commissioner for Management
                                    - 16 -
declined to sign the letter. At the exit conference, JMD officials indicated
that they would provide a management representation letter. However, at
the time of issuance of this report, we had not received it. Therefore, our
findings are qualified to the extent that the INS and JMD management may
not have provided us with all relevant information.




                                    - 17 -
                              APPENDIX II

WAIVER APPLICATION GUIDANCE BY JMD




               - 18 -
         APPENDIX II




- 19 -
                                    APPENDIX III

IMMIGRATION AND NATURALIZATION SERVICE RESPONSE




                     - 20 -
         APPENDIX III




- 21 -
         APPENDIX III




- 22 -
                              APPENDIX IV

JUSTICE MANAGEMENT DIVISION RESPONSE




                - 23 -
         APPENDIX IV




- 24 -
                                                              APPENDIX V

  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

       We have received and reviewed the INS and JMD responses to our
draft audit report. Where appropriate, we made changes to the final report
based upon the responses and information obtained at the exit conferences.
In particular, we edited the first sentence of Finding I on page 5 to indicate
that INS did not maintain accurate and complete data on annuitants who
were rehired under OPM waiver authority. Additionally, in response to a JMD
comment, we clarified page 9 of the report to indicate that the Assistant
Attorney General for Administration, not the Director of JMD’s Personnel
Staff, currently has authority to approve waivers.

      The INS and JMD responses also address each of the five report
recommendations. Our comments on the responses are given below,
together with the status of the recommendations and actions necessary to
close the report.

1.    Resolved. (INS) In order to close this recommendation, please
      provide a copy of the procedures, practices, and associated quality
      control measures developed that will identify the names, series, and
      compensation paid to rehired annuitants who receive waivers, and
      evidence that this information is reconciled with data provided to the
      NFC.

2.    Resolved. (INS) In order to close this recommendation, please
      provide evidence that the files for all rehired annuitants who have
      received waivers and are currently employed at the INS contain
      statements that they would not have accepted the position without a
      waiver being granted.

3.    Resolved. (JMD) As stated in the report, we acknowledged that JMD
      personnel staff stated that they reviewed the requests against the
      criteria we included as APPENDIX II. We also recognize, as JMD
      indicated in its response to our draft report, that JMD sent the INS
      memoranda that provided its decisions for INS waiver requests.
      However, the memoranda JMD is referring to covered groups of
      employees and did not contain any indication of how it arrived at
      individual decisions for waivers that JMD approved. As we indicated in
      our audit report, we believe JMD should document its analysis of each
      request against the criteria in Appendix II. Such documentation would

                                    - 25 -
     provide a formal record of the rationale applied by the JMD reviewers
     to reach their decision for each annuitant. In order to close this
     recommendation, please describe the methodology you intend to use
     to document reviews of the INS's request for waiver for each annuitant
     against the criteria.

4.   Resolved. (INS) In order to close this recommendation, please
     provide a copy of the long-term strategy that establishes viable
     alternatives to the use of reemployed annuitants using offset waivers
     that was approved by JMD or the successor component in the DHS.

5.   Resolved. (JMD) In order to close this recommendation, please
     provide us with the terms of the compromise JMD enacted to address
     mission needs while addressing the long-term goals.




                                  - 26 -
